2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 20-437
UNITED STATES,
Petitioner,
V.

REFUGIO PALOMAR-SANTIAGO,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 29th day of March, 2021, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE NATIONAL ASSOCIATION OF
FEDERAL DEFENDERS IN SUPPORT OF RESPONDENT in the above entitled case. All parties required to be served
have been served by Priority Mail. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:

DANIELL. KAPLAN
Assistant Federal Public
Defender
Co-Chair, National
Association of Federal
Defenders Amicus
Committee
850 West Adams Street
Suite 201
Phoenix, Arizona 85007

CUAUHTEMOC ORTEGA
Federal Public Defender
BRIANNA FULLER MlRCHEFF*
DAVID MENNINGER
Deputy Federal Public
Defenders
321 East Second Street
Los Angeles, California
90012
(213) 894-2854
Brianna_Mircheff@fd.org
*Counsel of Record

Subscribed and sworn to before me this 29th day of March, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

NERAL NOTARY-State of Nebr.ska
RENEE J. QOSS

My Comm. E,cp, September 5, 2023

Affiant

40800

Elizabeth B. Prelogar
ACTING SOLICITOR GENERAL
U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., NW
Washington, DC 20530
SupremeCtBriefs@usdoj.gov
(202) 514-2203
Counsel for the United States
Bradley N. Garcia
O’MELVENY & MYERS LLP
1625 Eye Street, N.W.
Washington, DC 20006
bgarcia@omm.com
(202) 383-5160
Counsel for Respondent Refugio Palomar-Santiago

